Inspections Report I-98-19
U.S. Department of Justice
Office of the Inspector General
Inspections Division
The Immigration and Naturalization Service's
Customer Management Information System
Report Number I-98-19
July 1998
TABLE OF CONTENTS
Transmittal Memorandum
INTRODUCTION
How INS Uses CMIS To Serve Customers
CMIS Equipment
CMIS Reports
RESULTS OF THE INSPECTION
INS Fails To Use Customer Service Data Provided by CMIS
CMIS Data is Not Consistently Reliable Because
of Faulty Data Entry
INS Personnel Fail to Enter Data In CMIS at Some
Locations
CMIS Data is Entered Incorrectly
Triage Customers are Erroneously
Reflected as "No Shows"
CONCLUSION AND RECOMMENDATION
Appendix I Inspection Methodology
Appendix II Immigration and Naturalization Service Response to
Draft Report
Appendix III Office of the Inspector General's Analysis of
Management's Response
July 31,1998
MEMORANDUM FOR DORIS MEISSNER
COMMISSIONER
IMMIGRATION
AND NATURALIZATION SERVICE
FROM:
MICHAEL
R. BROMWICH
INSPECTOR
GENERAL
SUBJECT:
Inspection of the Immigration and Naturalization Service's
Customer Management Information System,
Report Number I-98-19
We have conducted an assessment of the Immigration and Naturalization Service's (INS)
Customer Management Information System (CMIS). CMIS is the computer system INS uses to
serve walk-in customers who visit information waiting areas in many district offices. When
CMIS was initially installed, INS managers believed it could provide district management
with a tool to increase the number of customers served, improve statistical reporting, and
reduce customer and employee frustration. Two components of the CMIS initiative have been
implemented with beneficial results. A triage counter enhances INS' ability to handle
brief service requests quickly and to identify customers who require more specialized and
lengthier services. The numbering system assures customers that their wait will be orderly
and enables the customers to track their progress.
CMIS was designed to collect and report information about the types of services
provided to customers, waiting and transaction times, and a myriad of data that could be
used by INS to better manage information waiting areas. Based upon our review of the
system, we believe that INS managers could use CMIS data to establish baseline information
and performance measures through which they could better manage information waiting area
operations. However, CMIS' management information capabilities currently provide little
value to INS. We found little evidence that CMIS is producing reliable data or that any
effort is being made to gather, analyze, or apply such data to enhance INS' use of its
resources or improve its delivery of services.
Although CMIS reports could be valuable tools for assessing and improving customer
service, we found problems with the reliability of the data contained in CMIS. We observed
numerous instances where Immigration Information Officers were either incorrectly entering
or failing to enter data in CMIS. These data entry errors and omissions cause the system
to report erroneously the total number of customers served, the number of customers served
by category, the number of transactions performed, and customers' wait and transaction
times. We also surveyed Immigration Information Officers and found that more than half
could not identify the correct CMIS category and transaction codes for many services.
We believe INS management should routinely analyze and use CMIS data to improve
customer service. Such routine use of CMIS data should assist INS in identifying and
correcting data entry problems such as those outlined in our report. CMIS training and
data entry practices also need to be improved. Field personnel need to be trained in how
to use the system and advised of the system's capabilities. Formal CMIS data entry
procedures need to be developed and enforced. Until these data entry problems are
corrected, INS should not use CMIS data for decision-making or reporting purposes.
Based upon the information made available to us by INS officials, we estimate that INS
has spent approximately $1.3 million on CMIS through FY 1997. These costs are associated
with the installation and upgrading of CMIS equipment and the maintenance of related
hardware and software. If INS continues to make little or no use of CMIS data, INS should
not spend additional funds to install or upgrade CMIS and should consider using less
costly customer ticket systems.
We sent copies of the draft report to your office on February 5, 1998, and requested
written comments on the findings and recommendation. Your May 26, 1998, response concurred
with the single recommendation. We have attached your response as Appendix II.
On the basis of your concurrence with the recommendation and your indication that an
assessment of CMIS will be completed within six months, we consider the recommendation
resolved and have kept it open pending further action. Appendix III explains what actions
are needed to close the one recommendation.
Please respond to the resolved recommendation by December 1, 1998. Your response should
provide the additional information requested. If actions have not been completed, please
provide projected completion dates. Guidance on report follow-up and resolution can be
found in Department of Justice Order 2900.10.
We hope our comments, suggestions, and recommendation in the attached report will be
useful in your efforts to address these issues. We appreciate the cooperation extended to
our Inspections Division staff during the review. If you have any suggestions how we might
improve our review process, or if we can provide you with additional information, please
let us know.
Attachment
cc: Kathleen Stanley
Liaison
Immigration and Naturalization Service
Vickie L. Sloan
Director
Audit Liaison Office
INTRODUCTION
The Customer Management Information System (CMIS) is the computer system the
Immigration and Naturalization Service (INS) uses to serve walk-in customers visiting
information waiting areas in many district offices. Over five million customers annually
visit INS information waiting areas. Reasons for visits include: picking up forms,
obtaining general information, applying for permanent residency or Employment
Authorization Documents, or requesting extensions of status, e.g., students. CMIS is
designed to help INS ensure that customers are served through an orderly process. CMIS is
also designed to collect and report information about the types of services provided to
customers, waiting and transaction times, and a myriad of data that could be used by INS
to better manage information waiting areas. Used effectively, CMIS can also allow
management to monitor and assess its operations and to reposition staff to more
effectively serve customers. The objectives of this inspection were to assess the CMIS'
effectiveness in providing management with accurate and useful customer service
information and in expediting customer traffic.
INS first installed CMIS in 1988 at its Chicago District Office. Chicago District
management stated CMIS provided the district with the ability to increase the number of
customers served, improve statistical reporting, and reduce customer and employee
frustration. Use of CMIS expanded to other districts because of Chicago's positive
experience with the system. INS district and regional managers were responsible for
procuring and installing CMIS until 1991, when control of CMIS was moved to INS
Headquarters.
Responsibility for CMIS is currently assigned to the Office of Adjudications. Support
for CMIS in the Office of Adjudications is limited to a single program manager, who is
responsible for supporting 47 of the 51 field sites where CMIS is installed.1 The latest version of CMIS is operational at 39 of
the 51 field sites.2  Regional support for CMIS
is limited. Each of the three regions has one or two staff members assigned to
CMIS-related activities. Regional support staff assigned to CMIS activities estimate that,
on average, they devote only 10 to 20 percent of their time to CMIS activities.
CMIS field sites are not currently unified in a single computer network. Each field
site operates independently; local management can only access its own data base. INS
Headquarters and Regional Offices have the capability to access CMIS at field sites, but
only one field site at a time.
Based on the information provided to us by INS officials, we estimate that INS has
spent approximately $1.3 million on CMIS through FY 1997. These costs are associated with
the installation and upgrading of CMIS equipment and the maintenance of related hardware
and software.
How INS Uses CMIS To Serve Customers
When entering an INS information waiting area that uses CMIS, customers are referred to
a "triage" counter. At the triage counter, the nature of the customer's visit is
established by an Immigration Information Officer (IIO). Simple requests for information
or forms are usually handled at the triage counter so these customers can be served
quickly and depart the information waiting area. Customers requiring more extensive
services are issued sequentially numbered tickets for various categories of services.
Customers issued tickets remain in the waiting area until their numbers appear on a CMIS
display board. The customers then proceed to the designated service counter to receive
assistance on all work required. Figure 1 depicts a typical information waiting area
operation.
Figure 1: Typical Information Waiting Area
Source: OIG Observations
CMIS Equipment
Information waiting areas using the latest version of CMIS typically contain the
following equipment:
· Ticket Printer - located at the triage counter, this printer
is used to issue a ticket to a customer showing a letter identifying the customer service
category, a number showing the customer's position in the category, and an estimated wait
time.
· Counter Terminals - located at the triage counter and all
service counters, these keypads are used to categorize customers, enter data into the
system, and call customers to be served.
· Main and Counter Displays - located at strategic locations
in the information waiting area and above each service counter, these lighted boards
provide customers with their wait status by displaying the customer number being served in
each category, the customer number being served at each counter, and the next number due
for service.
· Personal Computer - located in the supervisor's office, this
computer is intended to monitor and control the information waiting area operation, assign
priorities to customer categories, redirect INS personnel as needed, and store statistics
for display, analysis, and report retrieval.
CMIS Reports
CMIS captures and reports data on four basic variables: wait times, transaction times,
customers served by category of service, and types of transactions. CMIS reports can be
used by management to monitor current information waiting area workflow as well as provide
analysis of past performance. CMIS reports can cover time periods ranging from an hour to
a year. Some of the types and the capabilities of CMIS reports include:
· Transaction Time Reports. These reports reflect the number
of customers served and the time required to complete each transaction. These reports
could be used by management to monitor customer service goals, e.g., to provide a specific
category of service in less than four minutes.
· Wait Time Reports. These reports provide the number of
customers whose wait time fell within selected time intervals. These reports could also be
used by management to monitor customer service goals, e.g., establish an acceptable wait
time of thirty minutes or less for any or all services provided.
· Category Reports. For a category, or range of categories,
these reports indicate the average and maximum number of customers awaiting service,
customers served, and customers who fail to appear for service over a specific time frame.
· Work Station Reports. These reports show the number of
customers served at the triage counter or a service counter during a specific block of
time.
· Work Station Performance Reports. These reports indicate the
time a service counter was open and closed, its operating and idle time, the number of
customers served, and the total and average transaction time. These reports could provide
management with service counter productivity data to establish office operating standards.
· Transaction Code Reports. These reports list the transaction
codes and the number of transactions performed by code. These reports can provide
management with data on the specific types of services provided to customers.
The triage and service counters are the two collection points where customer service
data is entered into the CMIS data base. INS generally classifies and counts customers
entering information waiting areas into one of a basic set of five CMIS service
categories:
· Forms - for customers requesting INS forms;
· Info Direct - for customers seeking responses to simple
requests for information on any INS subject;
· Information/Questions - for customers seeking responses to
more complex inquiries about any immigration subject;
· Applications - for customers submitting applications for INS
benefits; and
· Replacement Cards - for customers submitting requests for,
or asking for information on, replacement of lost, damaged, or stolen cards.
To accommodate local needs, some field sites have supplemented this basic set with
additional categories, e.g., for attorneys and adjudications, or in other instances have
reduced the number of categories. Transaction codes are also entered in CMIS for all
customers served. There are over 90 different transaction codes used to identify specific
customer services performed, and any transaction code can be entered under any category.
CMIS does not capture the time a customer spends waiting to gain access to the
information waiting area prior to its opening or waiting in the line at the triage
counter. For the purpose of CMIS reporting, a customer's wait time does not begin until
the customer is placed in a service category at the triage counter. CMIS can accurately
record the customer's wait time and transaction time if the data is entered correctly.
· The customer's wait time begins when the customer is first
counted and entered in a service category at the triage counter and ends when the
customer's number is called at a service counter.
· The customer's transaction time begins when the customer's
number is called at a service counter and ends when all transactions for that customer
have been completed.
RESULTS OF THE INSPECTION
INS Fails to Use Customer Service Data Provided by
CMIS
CMIS' management information capabilities currently provide little value to INS. INS
managers could use CMIS data to establish baseline information and performance measures
through which they could better manage information waiting area operations. However, there
are no requirements that mandate the analysis or the use of CMIS information, and we found
little evidence that INS managers in the field or at Headquarters used CMIS reports. We
could not determine whether CMIS had helped reduce wait and transaction times because
baseline data prior to CMIS installation was not available from INS. Our observations and
interviews with supervisory IIOs confirmed that the CMIS ticketing process contributed to
an orderly waiting room environment.
During our field work we determined that INS does not take full advantage of CMIS'
capabilities. At most of the field sites we visited, we found that INS management and
staff ignore the customer service information collected and reported by CMIS. The system
automatically generates a series of standardized reports at the end of the day at each
field site. However, most supervisory IIOs we spoke with admitted that they did not review
these reports. Based on our discussions with INS officials, we believe that INS' failure
to effectively use CMIS results, at least in part, from a lack of understanding of what
CMIS can do for INS.
Based on our observations and interviews with INS personnel, INS' only effective use of
CMIS is to control and move customer traffic in an orderly manner. IIOs behind the service
counters believe CMIS improves their working environment by eliminating the constant line
of customers that previously stood in front of their counters over the entire course of
the workday. IIOs also believe the customers' frustration level is lowered because the
customers can sit and wait for the system to call them for service in an orderly manner.
We believe that CMIS data, if entered properly, could be used to assess INS information
waiting area operations and improve the service INS provides to its customers. For
example, we conducted an analysis of CMIS reports for the month of January 1997 for the
nine field sites we visited.3 Our analysis
suggests that triage counters are generally effective in serving a large percentage of INS
customers (see Figure 2).4  Our observations at
the field sites we visited generally confirmed this analysis.
Figure 2: Percent of Customers Completing Their Transactions at the Triage Counter
without Requiring Referral to the Service Counters in January 1997
Source: INS CMIS Reports
CMIS data indicates that over half of the customers coming into INS information waiting
areas at the locations we visited completed their transactions at the triage counters.
These customers then left the information waiting area, thereby freeing INS resources to
serve other customers. If the CMIS data is correct, further study would be necessary to
determine the reason for the low customer percentage at the triage counter for Atlanta.
The generally short transaction times shown in the CMIS reports for the Forms and Info
Direct categories suggest that triage customers are receiving these services in a
reasonable time. The median transaction times for the nine field sites were approximately
three minutes for Forms and three and one-half minutes for Info Direct. Figure 3 shows the
average transaction times at triage counters. The data in Figure 3 also illustrates a
significant anomaly in the triage counter data. While transaction times for Info Direct
customers at most field sites fell within approximately three to four minutes, Miami
showed an average transaction time of over forty-seven minutes.
Figure 3: Triage Counter Transaction Times for Forms and Info Direct by Office in
January 1997
Source: INS CMIS Reports
The report data also showed that while a total of 9,524 customers were served in Miami
in January 1997, only 41, less than .5 percent, were placed in the Info Direct category.
This extremely low percentage for Info Direct customers in Miami is atypical of most of
the field sites visited, where Info Direct constituted a significant percentage of total
customers served. However, the report data for Miami also shows that 3,211 customers were
served in the Information/Questions category. Service for this category is obtained at the
service counters rather than at the triage counter. Generally, this category of questions
requires more time on the part of the IIO to answer. The average transaction time for
these 3,211 customers was fourteen minutes, and the report data shows that they had to
wait an average of two hours and twenty minutes to receive service.
If the CMIS report data for Miami is correct, the triage counter is not used
effectively to provide information to customers. The report data appears to indicate that
the vast majority of Miami customers needing information are served at the service
counters where they must wait a substantial amount of time before having their questions
answered. This would appear to defeat the purpose of the triage counter, which is to
screen customers who can be served quickly without referral to the service counters.
In order to assess the speed of service at the service counters, we examined the
average wait and transaction times for customers requesting replacement cards. We chose
the Replacement Cards category because it was the only service counter category that was
consistently reflected in CMIS reports for all nine field sites we visited (see Figure 4).
Our analysis of CMIS reports showed inconsistent usage of customer categories by field
sites, as discussed in more detail in the next section of the report describing CMIS data
entry problems. The CMIS reports show that the average transaction times for all field
sites fall within the relatively narrow range of six to twelve minutes. Wait times,
however, fluctuate from a low of eleven and twelve minutes for Buffalo and El Paso, to
almost two hours in San Diego. Wait times for the other six field sites were within the
range of approximately one hour to an hour and a half.
Figure 4: Wait and Transaction Times for Replacement Cards by Office January 1997
Source: INS CMIS Reports
Figure 4 shows the wait and transaction times for the nine field sites. If this data is
correct, INS should determine how El Paso and Buffalo have reduced waiting times to less
than 20 percent of those of the other seven field sites. The lower wait times recorded in
El Paso and Buffalo may be due to erroneous data entry, lower than usual customer numbers,
or an extremely efficient staff. INS should analyze CMIS reports to help identify the
causes of apparent disparities in customer service among district offices. We discuss the
reliability of CMIS data in the following section of this report.
CMIS Data is Not Consistently
Reliable Because of Faulty Data Entry
Although CMIS reports could be valuable tools for assessing and improving customer
service, the data contained in CMIS, and reflected in the reports, is unreliable. We
observed numerous instances of IIOs incorrectly entering or failing to enter data. These
data entry errors and omissions caused the system to report erroneously the total number
of customers served, the number of customers served by category, the number of
transactions performed, and customers' wait and transaction times. We confirmed, when
possible, our field observations with an analysis of CMIS reports from field sites. We
also surveyed IIOs and found that many could not identify the correct CMIS category and
transaction codes for specific services.
INS Personnel Fail to Enter Data In CMIS at Some
Locations
We observed INS triage and service counter personnel at many of the information waiting
areas failing to enter customer service data into CMIS, which prevents the accurate
capture and reporting of customer service data. For example, at one field site, Info
Direct customers were not counted at the triage counter. The daily report only shows two
customers captured in this category for the day. At a second field site we observed
certain IIOs failing to enter any data into CMIS at the triage counter. At this second
field site we estimate that at least twice as many customers came in for service as were
reported by CMIS for that day.
At four field sites we observed IIOs providing assistance to customers at service
counters with keypads that had not been activated or were inoperative. This prevented any
service data from being captured. At another field site we observed two IIOs failing to
enter data into CMIS at triage counters. During a twenty minute time period we observed
approximately 30 to 40 customers receiving service. Of the two IIOs staffing the counter,
one failed to enter any data, the second IIO only entered forms-related data.
At two field sites we observed that attorneys were allowed to drop off packets of
applications at the cashier cage for processing without going to the triage counter to
receive a ticket. We were told that members of voluntary agencies were permitted to do the
same thing. This practice of allowing certain customers to by-pass the system prevents the
number of these applications submitted and the associated processing time from being
captured in CMIS.
CMIS Data is Entered Incorrectly
We observed numerous instances where IIOs were incorrectly entering data. At one field
site we observed IIOs routinely entering multiple transaction codes at the end of a
customer's session. This causes inaccurate transaction times to be recorded.
We found several instances where field management sacrificed accurate CMIS data in
order to expedite customer service. We do not believe that INS should impede efficient
service in order to merely capture accurate data. However, INS should devise methods to
record accurate data when implementing customer service innovations.
At one field site we observed IIOs issuing tickets for a different category of service
than the service the customers requested. The supervisory IIO at this field site explained
that by placing customers with less time-consuming applications in the
Information/Questions category these customers would be called and served more quickly
because wait times were shorter for that category than for the applications category.
At another field site, an INS employee working in the Adjudications section generated a
series of Adjudications category tickets at the triage counter for customers waiting in
line at the triage counter to apply for Employment Authorization Document (EAD) cards.
These tickets were not distributed to the customers, but were inexplicably discarded by
the employee. These customers were then instructed to turn in their EAD appointment
letters to the employee and wait to be called. These letters would determine the order in
which the customers would be called to receive service in this section of the information
waiting area. After the EAD cards were issued to this group of customers, the employee
then entered the transaction code and pushed the "next" button on the keypad for
each customer served in rapid succession. Only the first ticket number in this series was
recorded in the Adjudications category as a customer served. The remaining numbers in this
series were recorded in CMIS as "no shows" (customers failing to show for
service) because the INS employee did not wait the required interval before pushing the
button to call the next customer.5  The
consequence of this unusual method resulted in almost every one of these customers being
counted in CMIS as a "no show."
This interval first starts when the button is pushed on the keypad at the service
counters to call a customer. This displays the next customer number in the sequence
awaiting service. The customer is served and the interval ends when the button is pushed
again, calling the next customer number in the sequence. When INS staff fail to wait the
required interval before calling the next customer, the system will record this customer
number as a "no show" for that category, even though the customer has been
served. The CMIS report for that day showed 3 customers served in the Adjudications
category, and 52 "no shows."
At another field site, paperwork that was required to start the process for obtaining
replacement cards was collected when the customer was issued a ticket at the triage
counter. The staff proceeded to conduct and complete the necessary work for the customer
while the customer was in the waiting area. Eventually, the customer's number was
displayed to start the transaction process when, in actuality, a majority of the process
had already been completed. While this practice may help process the customer more
quickly, it also distorts the recorded wait and transaction times. The time the staff
spent processing the transaction is not accurately captured. This time is actually
absorbed in the customer's wait time. Only the abbreviated time that the customer is in
front of the IIO picking up the paperwork is captured in the transaction time.
We found that the field sites we visited deviated from the basic set of five category
headings to accommodate local needs. Seven sites used six categories and one site used
four categories. The remaining field site reduced the number of categories it used to
classify its customers from six to two (Information/Questions and Adjudications). We also
observed that one district office used different categories than its sub-office. The
practice of adjusting the number of categories to facilitate customer service is
understandable, but it prevents CMIS from capturing consistent information and comparing
data from site to site.
Multiple Counting of Individual Customers
We witnessed numerous instances of individual customers at the triage counters being
counted in more than one category. We frequently observed customers at triage counters who
requested a form and asked a general question. We then noted the IIO would count the
customer twice in CMIS, once as a customer served in the Forms category and once in the
Info Direct category. According to the CMIS program manager, each customer should only be
counted in one category. This provides the field site with an accurate count of the number
of individual customers coming into the office and being served that day.
The multiple counting of customers that we observed is attributable to the triage
counter IIOs not following the one-customer-per-category data entry procedure. Multiple
counting inflates the number of customers served for the day. The IIOs should only count
the customer in one category and enter the correct transaction code(s) to capture any
additional services provided and have rules for determining which category a customer who
has more than one type of transaction should be sorted.
Two field sites we visited had separate service areas for Forms and Info Direct
category customers. It is likely that many customers at these field sites are counted more
than once during the day. The customers go to the area designated for forms and
information, receive service, and are counted in the appropriate category. The same
customers could then go to the other information waiting area in a different location in
the building to obtain other types of services and be counted again in another category
that same day. CMIS is unable to track and prevent the multiple counting of Forms and Info
Direct category customers because they do not receive a ticket.
Survey Results Suggest IIOs Are Incorrectly Entering CMIS Data
Further evidence that CMIS data is inaccurate is supported by the results from the
questionnaire we presented to IIOs during our site visits. This questionnaire presented a
variety of scenarios that an IIO may encounter at both triage and service counters. The
IIOs were asked to enter either the ticket category or the transaction code(s) as they
pertained to these scenarios. Only 41 percent of the triage counter responses and 46
percent of the service counter responses were correct.
The questionnaire also identified a large disparity in the way IIOs are entering
multiple transaction codes for a single customer. Of the 67 IIOs that responded, only 36
(54 percent) indicated that they correctly entered each transaction code after completing
each specific transaction. The other 31 (46 percent) IIOs indicated they entered all of
the transaction codes at the very end of the customer's session. This second method of
data entry results in inaccurate transaction times.
Based on the questionnaire results, we believe that additional training is needed if
INS continues to use CMIS. Past CMIS training has generally consisted of one or two days
of hands-on training conducted by the program manager at the time of installation or
upgrade of the system. We encountered few INS supervisors and staff who appeared to fully
understand the entire range of CMIS capabilities.
Triage Customers are
Erroneously Reflected as "No Shows"
Our review of CMIS reports identified a substantial number of "no shows"
recorded in the Forms and Info Direct categories at triage counters (see Figure 5). Forms
and Info Direct customers are served directly at the triage counters and are not issued a
ticket. All remaining customers receive category tickets at the triage counters for
transactions to be performed at the service counters. Customers may fail to show for
service at the service counters for a variety of reasons correctly resulting in "no
shows" being recorded. Forms and Info Direct customers should never be recorded as
"no shows."
Figure 5: Percent of Customers Served at Triage Counters Reported as "No
Shows" by Office in January 1997
Source: INS CMIS Reports
For eight of the field sites we visited we conducted an analysis of the CMIS reports
for the month of January 1997.6   Our
analysis for these eight sites reflected a total of 35,850 customers served in the Forms
and Info Direct categories. CMIS reports incorrectly identified 9,206 of these 35,850
customers served as "no shows." These 9,206 customers actually received service
at the triage counter and therefore should not have been recorded as "no shows."
CMIS reports are substantially understating the numbers of customers served at the triage
counters. In this case, 26 percent of the customers actually served at triage counters for
the eight field sites in January 1997 were not counted as customers served. These
customers were recorded as "no shows" because the IIOs failed to wait the
required interval before pushing the button on the keypad bringing the next customer to
the counter.
CONCLUSION AND RECOMMENDATION
In June 1995, an INS Headquarters memorandum to all Regional Directors stated that CMIS
was ". . . designed to expeditiously process the visiting public, improve employee
productivity, and provide managers with a useful tool for gathering statistics."
Based upon our field observations and our analysis of CMIS reports, we believe that INS is
using CMIS to control and serve customers in an orderly fashion. However, our review of
CMIS also revealed that INS management does not routinely use or analyze CMIS data to
improve or manage waiting room operations. Further, customer service data collected by
CMIS is not consistently reliable.
INS has spent approximately $1.3 million on CMIS through FY 1997. We believe INS has
not realized the full benefit of this expenditure. INS has used CMIS as a customer service
sequencing tool and not as a management information system. A simple, less expensive
"take a number" system, without the management information capability may have
sufficed.
We believe INS management should routinely analyze and use CMIS data to improve
customer service. The routine review and use of CMIS data would also assist INS in
identifying and correcting data entry problems and would potentially improve employee
productivity. Until these data entry problems are corrected, INS should not spend
additional funds to install or upgrade CMIS, or use CMIS data for decision-making or
reporting purposes.
The Inspections Division recommends that the Commissioner, Immigration and
Naturalization Service:
1. Determine whether the customer service information supplied by CMIS is useful to
INS.
· If CMIS information is not useful, INS should stop spending
additional funds on CMIS and explore alternative and less-expensive customer ticket
systems.
· If INS determines that CMIS information is useful, issue
standard procedures and requirements to improve data reliability and require the use of
CMIS data to improve INS information waiting area operations.
APPENDIX I
INSPECTION METHODOLOGY
We conducted our field work from February through May 1997. We interviewed key
officials at INS Headquarters and at selected field sites, observed information waiting
area operations, and reviewed and analyzed available documentation and reports. Field
sites we visited included offices and suboffices in El Paso, San Diego, San Francisco, San
Jose, Chicago, Buffalo, Atlanta, Miami, and New York. We visited with the contractor
responsible for the CMIS technology and installation at INS field sites to obtain an
understanding of the history and features of the system.
The inspection also included a questionnaire administered to INS Immigration
Information Officers (IIOs) at field sites we visited who were assigned to information
waiting areas. We developed and tested this questionnaire to allow us to assess the IIOs'
knowledge of CMIS data input procedures. Management officials from the INS Office of
Adjudications, the CMIS program manager, and the Baltimore District's supervisory IIO
reviewed this questionnaire for content validity and reliability.
APPENDIX III
OFFICE OF THE INSPECTOR GENERAL'S ANALYSIS
OF MANAGEMENT'S RESPONSE
On February 5, 1998, the Inspections Division sent copies of the draft report to INS
with a request for written comments. INS responded by memorandum from the Commissioner
dated May 26, 1998 (APPENDIX II).
1. Recommendation 1 - Resolved-Open. INS concurred with our recommendation and
stated in its memorandum that CMIS information is useful and will provide managers with
data to improve employee productivity and service to the public. In the next six months
INS will reassess its needs and explore whether CMIS is the most cost effective and
efficient program to meet those needs.
Please provide the completed assessment by December 1, 1998. In addition, if CMIS is
selected as the system to meet INS' future needs, please provide the standard procedures
and requirements under which CMIS will operate. If CMIS is not selected as the system,
please provide the program plan for the selected system's mission, implementation, and
operation.
1 At 4 of the 51 sites (the Detroit International Airport, and
3 El Paso District land ports-of-entry located at Ysleta, Paso del Norte, and the Bridge
of the Americas) CMIS is administered locally without the support of the CMIS program
manager.
2 INS began upgrading CMIS to its latest version in September
1995. This version provides additional functions to help manage, control, and monitor
customer traffic, and offers a wider range of statistical reporting capabilities.
3 Complete data was not available from the New York office.
4 The number of Forms and Info Direct customers served at
triage counters in January 1997: EL Paso - 3,225; San Diego - 5,383; San Francisco -
7,934; San Jose - 6,683; Chicago - 6,488; Buffalo -1,073; Atlanta - 619; Miami - 4,445.
5 CMIS allows INS to set a time interval that determines when
a customer is to be recorded as a "no show." The purpose of the time interval is
to allow CMIS to record a customer as a "no show" if the customer fails to
report to the service counter when called. If the elapsed time between the first and the
last keypad entries for a customer is less than the designated interval, CMIS records that
customer as a "no show." Although CMIS may be set for any time interval, the
CMIS program manager decided that twenty seconds was appropriate because every customer
transaction should require at least twenty seconds to perform. Calling the next customer
in less than twenty seconds tells CMIS that the previous customer failed to report for
service.
6 The number of Forms and Info Direct customers reported as
"no shows" after being served at triage counters in January 1997: EL Paso - 804;
San Diego - 749; San Francisco - 2,062; San Jose - 2,478; Chicago - 1,862; Buffalo -76;
Atlanta - 166; Miami - 1,009; complete data was not available for New York.
#####